•

Electronic Document

Jul 29 2021 10:11:15

2017-M-00230

Pages: 5

Serial: 237211
IN THE SUPREME COURT OF MISSISSIPPI
No. 2017-M-00230
CHRISTOPHER WILSON

Petitioner

v.
STATE OF MISSISSIPPI

Respondent
EN BANC ORDER

Now before the Court is Christopher Wilson's Application for Leave to Proceed in
the Trial Court.
Wilson was convicted of murder and sentenced to life. The Court of Appeals
affirmed his conviction and sentence, and the mandate issued on June 5, 2007. Wilson v.
State, 956 So. 2d 1044 (Miss. Ct. App. 2007). Thus, the present filing is time barred.
Miss. Code Ann. § 99-39-5(2) (Rev. 2020). As Wilson’s tenth application for post­
conviction relief, the filing also is barred as a successive writ. Miss. Code Ann. §
99-39-23(6) (Rev. 2020).
Wilson raises issues regarding Dr. Stephen Hayne’s testimony, ineffective
assistance of counsel, and the weight of the evidence. The claims were raised previously
and are barred under the doctrine of res judicata. Miss. Code Ann. § 99-39-21(3) (Rev.
2020). And .Wilson fails to raise an arguable basis for his claim to warrant an exception
from the procedural bars. See Rowland v. State, 98 So. 3d 1032, 1036 (Miss. 2012)
(recognizing double jeopardy, illegal sentence, and denial of due process at sentencing as
fundamental-right exceptions), overruled on other grounds by Carson v. State, 212 So. 3d
22 (Miss. 2016); Means v. State, 43 So. 3d 438, 442 (Miss. 2010). Accordingly, we find
the application should be denied.
We further find the application is frivolous and hereby warn Wilson that future
filings deemed frivolous may result not only in monetary sanctions but also in restrictions

on filing applications for post-conviction collateral relief (or pleadings in that nature) in
forma pauperis. See Order, Dunn v. State, 2016-M-01514 (Miss. Nov. 15, 2018).
<*

IT, THEREFORE, IS ORDERED that Christopher Wilson’s Application for Leave
to Proceed in the Trial Court is denied.
IT FURTHER IS ORDERED that Wilson is warned that future filings deemed
frivolous may result not only in monetary sanctions but also in restrictions on filing
applications for post-conviction collateral relief (or pleadings in that nature) in forma
pauperis.
SO ORDERED.
TO DENY WITH SANCTIONS WARNING:
RANDOLPH, C.J., COLEMAN,
MAXWELL, BEAM, CHAMBERLIN, ISHEE, AND GRIFFIS, JJ.
TO DISMISS: KITCHENS AND KING, P.JJ.
KING, P.J., OBJECTS TO THE ORDER WITH SEPARATE WRITTEN STATEMENT
JOINED BY KITCHENS, P.J.

DIGITAL SIGNATURE
Order#: 237211
Sig Serial: 100004067
Org: SC
Date: 07/29/2021

(XFpaah Dennis Coleman, Justice

2

IN THE SUPREME COURT OF MISSISSIPPI
NO. 2017-M-00230
Christopher Wilson
v.
State of Mississippi

KING, PRESIDING JUSTICE, OBJECTING TO THE ORDER WITH
SEPARATE WRITTEN STATEMENT:
Although I agree that Christopher Wilson’s application for post-conviction relief
should be dismissed, I disagree with the Court’s finding that the application is frivolous and
with its warning that future filings deemed frivolous may result in monetary sanctions or
restrictions on filing applications for post-conviction collateral relief in forma pauperis.

12.

This Court previously has defined a frivolous motion to mean one filed in which the

movant has “no hope of success.” Roland v. State, 666 So. 2d 747, 751 (Miss. 1995).
However, “though a case may be weak or ‘light-headed,’ that is not sufficient to label it
frivolous.” Calhoun v. State, 849 So. 2d 892, 897 (Miss. 2003). In his application for post­
conviction relief, Wilson made reasonable arguments. As such, I disagree with the Court’s
determination that Wilson’s application is frivolous.

13.

Additionally, I disagree with this Court’s warning that future filings may result in

monetary sanctions or restrictions on filing applications for post-conviction collateral relief
informa pauperis. The imposition of monetary sanctions on a criminal defendant proceeding

lSee Order, Dunn v. State, No. 2016-M-01514 (Miss. Nov. 15, 2018).

in forma pauperis only serves to punish or preclude that defendant from his lawful right to
appeal. Black’s Law Dictionary defines sanction as “[a] provision that gives force to a legal
imperative by either rewarding obedience or punishing disobedience” iSarcc/z'ort, Black’s Law
Dictionary (10th ed. 2014) (emphasis added). Instead of punishing the defendant for filing
a motion, I believe that this Court should simply deny or dismiss motions that lack merit. As
Justice Brennan wisely stated,
The Court’s order purports to be motivated by this litigant’s disproportionate
consumption of the Court’s time and resources. Yet if his filings are truly as
repetitious as it appears, it hardly takes much time to identify them as such. I
find it difficult to see how the amount of time and resources required to deal
properly with McDonald’s petitions could be so great as to justify the step we
now take. Indeed, the time that has been consumed in the preparation of the
present order barring the door to Mr. McDonald far exceeds that which would
have been necessary to process his petitions for the next several years at least.
I continue to find puzzling the Court’s fervor in ensuring that rights granted to
the poor are not abused, even when so doing actually increases the drain on our
limited resources.
In re McDonald, 489 U.S. 180, 186-87, 109 S. Ct. 993, 997, 103 L. Ed. 2d 158 (1989)
(Brennan, J., dissenting).2

14.

The same logic applies to the restriction on filing subsequent applications for post­

conviction relief. To cut off an indigent defendant’s right to proceed in forma pauperis is to
cut off his access to the courts. This, in itself, violates a defendant’s constitutional rights, for

2See also In re Demos, 500 U.S. 16, 19, 111 S. Ct. 1569, 1571, 114 L. Ed. 2d 20
(1991) (Marshall, J., dissenting) (“In closing its doors today to another indigent litigant, the
Court moves ever closer to the day when it leaves an indigent litigant with a meritorious
claim out in the cold. And with each barrier that it places in the way of indigent litigants, and
with each instance in which it castigates such litigants for having ‘abused the system,’.. .
the Court can only reinforce in the hearts and minds of our society’s less fortunate members
the unsettling message that their pleas are not welcome here.”).
2

Among the rights recognized by the Court as being fundamental are the rights
to be free from invidious racial discrimination, to marry, to practice their
religion, to communicate with free persons, to have due process in disciplinary
proceedings, and to be free from cruel and unusual punishment. As a result of
the recognition of these and other rights, the right of access to courts, which
is necessary to vindicate all constitutional rights, also became a fundamental
right.
Joseph T. Lukens, The Prison Litigation Reform Act: Three Strikes and You’re Out of
Court-It May Be Effective, but Is It Constitutional?, 70 Temp. L. Rev. 471,474-75 (1997).
This Court must not discourage convicted defendants from exercising their right to appeal.
Wisconsin v. Glick, 782 F.2d 670,673 (7th Cir. 1986). Novel arguments that might remove
a criminal defendant from confinement should not be discouraged by the threat of monetary
sanctions and restrictions on filings. Id.
1|5.

Therefore, although I find no merit in Wilson’s application for post-conviction relief,

I disagree with this Court’s contention that the application merits the classification of
frivolous and with its warning of future sanctions and restrictions.
KITCHENS, P. J., JOINS THIS SEPARATE WRITTEN STATEMENT.

3

Additional material
from this filing is
available in the
Clerk's Office.

